         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       Followup on Information
       Concerning Superfund
       Cooperative Agreements with
       New York and New Jersey
       Report No. 08-2-0099

       March 4, 2008
                        U.S. Environmental Protection Agency                                          08-2-0099 

                                                                                                   March 4, 2008

                        Office of Inspector General


                        At a Glance
                                                                      Catalyst for Improving the Environment

Why We Did This Review
                                   Followup on Information Concerning
We performed this review to        Superfund Cooperative Agreements with
determine the status of the
$9.6 million in deobligations
                                   New York and New Jersey
for cooperative agreements
identified in an earlier report.    What We Found

Background                         We found that EPA Region 2 had deobligated $7.3 million from four of the
                                   six sites in New York and New Jersey cited in our prior report. Remaining
The U.S. Environmental             funds obligated for the Burnt Fly Bog, Combe Fill South, and Syncon
Protection Agency’s (EPA’s)        Resins agreements are expected to be used for ongoing work at the sites.
Office of Superfund                The amounts deobligated differ from the amounts identified in our prior
Remediation and Technology         report because additional funds were no longer needed for the Ellis Property
Innovation requested that we       site agreement, and because New York made final drawdowns on the New
obtain information involving       York Multi-Site agreement. Since the remaining funds obligated under the
obligations for Superfund          agreements are expected to be used for ongoing work, we are not requesting
cooperative agreements with        that EPA take additional corrective actions at this time. The Office of Solid
the States of New York and         Waste and Emergency Response had no comments on the draft report.
New Jersey. Our prior review,
dated October 30, 2006,
identified $9.6 million under
six agreements that could be
deobligated. In response to
our report, EPA provided
tentative actions and
milestones for the cooperative
agreements.


For further information,
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/
20080304-08-2-0099.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                    OFFICE OF
                                                                               INSPECTOR GENERAL




                                        March 4, 2008

MEMORANDUM

SUBJECT:	 Followup on Information Concerning Superfund Cooperative Agreements
          with New York and New Jersey
          Report No. 08-2-0099


FROM:         Melissa M. Heist
              Assistant Inspector General for Audit

TO:	          Susan Parker Bodine, Assistant Administrator
              Office of Solid Waste and Emergency Response


The Office of Inspector General (OIG) of the U.S Environmental Protection Agency (EPA) has
completed a followup review. This review was of EPA Region 2’s progress in implementing
corrective actions being taken based on the Office of Solid Waste and Emergency Response's
(OSWER’s) March 7, 2007, response to OIG Report No. 2007-2-00003, Information Concerning
Superfund Cooperative Agreements with New York and New Jersey, issued October 30, 2006.
The report had identified $9,586,744 in funding that could be deobligated and made available for
other environmental activity.

OSWER’s March 7, 2007, response stated that:

   1.	 Region 2 issued a Deobligation Plan for Fiscal Year 2007 to OSWER’s Office of
       Superfund Remediation and Technology Innovation on January 17, 2007. The
       Deobligation Plan specifically identified six cooperative agreement deobligations, all of
       which were identified in the OIG report. These deobligations are for: Imperial Oil, Ellis
       Property, Burnt Fly Bog, Combe Fill South, Syncon Resins, and New York Multi-Site.
   2.	 Deobligations for Combe Fill South, Syncon Resins, and New York Multi-Site had been
       tentatively scheduled for deobligation in June 2007.
   3.	 Deobligations for Imperial Oil, Ellis Property, and Burnt Fly Bog had been tentatively
       scheduled for deobligation in July 2007.




                                               1

These proposed actions and milestones were the scope of our followup review. We interviewed
EPA Grants and Program personnel to obtain information about the planned deobligations and
confirmed the actions taken by reviewing activity in the Financial Data Warehouse. We
performed our audit in accordance with generally accepted government auditing standards issued
by the Comptroller General of the United States. We conducted our audit field work from
August to October 2007.

We found that of the $9,586,744 suggested for deobligation, $7,264,970 has been deobligated.
Details on the status of obligations are in Table 1.

Table 1: Status of Obligations
                       Amount in Prior     Amount
     Site Name           OIG Report       Deobligated                   Agency Remarks
 Imperial Oil               $5,000,000       $5,000,000
 [New Jersey]
 Ellis Property                500,000          543,500    The actual amount deobligated was based on actual
 [New Jersey]                                              remedial design funds no longer needed.
 Burnt Fly Bog               1,000,000                0    Region 2 is re-budgeting the remaining funds needed
 [New Jersey]                                              for ongoing work at the site.
 Combe Fill South            2,000,000        1,336,578    The remaining funds are needed for ongoing work at
 [New Jersey]                                              the site.
 Syncon Resins                 600,000                0    A portion of the funds are to be used for ongoing work
 [New Jersey]                                              at the site. The State is working on the Financial
                                                           Status Reports to identify the remaining balance to be
                                                           returned to Region 2 in Fiscal Year 2008.
 New York Multi-Site           486,744          384,892    The difference between the amount identified in the
 [New York]                                                prior OIG report and the amount deobligated is due to
                                                           final drawdowns by the State.
 Total                      $9,586,744       $7,264,970
Sources: OIG Report No. 2007-2-00003, Financial Data Warehouse, and information provided by Region 2 Grants
and Contracts Management Branch staff and project officers.


Since the remaining funds obligated under the agreements are expected to be used for ongoing
work at Burnt Fly Bog, Combe Fill South, and Syncon Resins, we are not requesting the Agency
take additional actions at this time. We issued a draft report on February 15, 2008, and provided
the Agency an opportunity to respond. The Agency did not have any comments on the report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $54,227.

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

Should you have any questions, please contact Paul Curtis, Director, Financial Statement Audits,
at (202) 566-2523 or Curtis.Paul@epa.gov; or Meg Bastin, Project Manager, at (513) 487-2366
or Bastin.Margaret@epa.gov.




                                                      2

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             3

                                                                                Appendix A

                                   Distribution
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Administration and Resources Management
Regional Administrator, EPA Region 2
Director, Office of Grants and Debarment
Director, Grants and Interagency Agreements Management Division
Director, Office of Superfund Remediation and Technology Innovation
Chief, Contracts Management Branch, Office of Superfund Remediation and
   Technology Innovation
Director, Office of Financial Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Office of Administration and Resources Management
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Grants and Debarment
Audit Liaison, EPA Region 2
Chief, Grants and Contracts Management Branch, EPA Region 2
Deputy Inspector General




                                            4

